CERTIFICATE OF SERVICE
I hereby certify that I ala this day serving the
foregoing document upon the persons and in the
manner of first-class mail as below,
Attorney Jonathan D. Koltash
Office of Legal Counsel
Pennsylvania Departmeirt of Health
Room 825
Health & Welfare Building
625 Forster Street
Harrisburg, PA 17120
Phone: (717)788-2500
Email: jokoltash@pa.gov
Wei made this declaration in compliance with 28 U.
S. C. ยง 1746 setting out the date of deposit and
stating that first-class postage has been prepaid.

Ming Wei
3910 Silver Brook Dr.
Mechanicsburg, PA 17050
Phone: (717) 732-2040
Email: mingweiebct@hotmail.com
06/19/2020

1

